               Office of Inspector General




August 28, 2006

HENRY A. PANKEY
VICE PRESIDENT, EMERGENCY PREPAREDNESS

WILLIAM J. BROWN
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

ELLIS A. BURGOYNE
ACTING VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

SUBJECT: Audit Report – Postal Service Actions to Locate and Track Employees
         After Hurricane Katrina (Report Number HM-AR-06-005)

This report presents the results of our self-initiated audit of the U.S. Postal Service’s
actions to locate and track employees after Hurricane Katrina (Katrina) (Project Number
06YG020HM000). Our overall objective was to determine the effectiveness of the
actions to account for all employees based on whether the Postal Service (1) located
employees in the days after Katrina and (2) tracked employees’ locations as they
changed addresses in the days and months following the hurricane. We also determined
what, if any, responsibility employees had to inform the Postal Service of their locations
as they moved about the country. We reviewed the facilities in the Southeast Area’s
Mississippi District1 and the Louisiana District’s New Orleans Processing and Distribution
Center (P&DC) located in the Southwest Area.

The President’s Council on Integrity and Efficiency tasked the Inspectors General
community with assuring appropriate oversight of financial and procurement processes
and operations regarding Katrina activities. As a result, the U.S. Postal Service Office of
Inspector General (OIG) established a task force composed of auditors and investigators
to review the Postal Service’s Katrina activities. This report is the second of two reports
the OIG Human Capital Team has issued on actions to safeguard employees. The first




1
    The facilities we reviewed in the Mississippi District were in the 395 ZIP Code area.
Postal Service Actions to Locate and Track                                                         HM-AR-06-005
 Employees After Hurricane Katrina


report2 addressed the Postal Service’s actions taken to safeguard employees before
Katrina made landfall.

In this report, we concluded the Postal Service’s actions to initially locate employees in
the days after Katrina were timely and effective given the devastation caused to the
affected areas. We commend the Postal Service for its efforts that exemplify that the
safety and health of its employees are of the utmost importance.

We also determined the Mississippi District’s actions to track employees’ locations in the
days and months following the hurricane were effective, but the Southwest Area’s
actions needed improvement. In addition, although employees were responsible for
informing the Postal Service of their locations as they moved about the country, Katrina’s
catastrophic effects were so overwhelming they may have precluded many employees
from keeping in close contact with their employer. The Postal Service has taken many
corrective actions and this report has one recommendation to the Vice President,
Emergency Preparedness, to help improve the Postal Service’s ability to account for
employees after a natural emergency.3

The Vice President, Emergency Preparedness, agreed with the findings and supported
the recommendation. Although we had no recommendations for the Southeast Area
Vice President, he responded that he agreed with the findings and the actions planned to
revise the Mississippi District’s Integrated Emergency Management Plan4 (IEMP) were
implemented as described in the report. The Southwest Area Vice President also
responded by stating he concurred with the findings in the report.

                                               Background
The IEMP and Supplemental Hurricane Plans

The Postal Service’s IEMP is a comprehensive plan used to prepare for, mitigate,
respond to, and recover from domestic emergencies that occur at Postal Service sites.
The IEMP consolidates facility stand-alone plans, which include the Continuity of
Operations Plan (COOP), the Crisis Management Plan, the EAP, and
emergency-specific plans. The IEMP also establishes emergency management teams
(EMTs)5 and defines team roles and responsibilities. The IEMP further identifies the
phases of an emergency response and the responsibilities of the EMT during each
phase. In addition, the IEMP identifies the public service addresses related to hurricanes
(such as warnings and watches).


2
  Postal Service Actions to Safeguard Employees From Hurricane Katrina (Report Number HM-AR-06-002,
dated February 15, 2006).
3
  The Postal Service Emergency Action Plan (EAP), Version D-1.2, March 2004, defines a workplace emergency as:
human caused, technological, and natural emergencies (such as earthquakes, floods, hurricanes, tornadoes, and
winter storms). In this report, we refer to Katrina as either a hurricane or a natural emergency.
4
  IEMP, Production Version 1.2, Installation and Districts, March 2004.
5
  EMT members include the emergency manager, safety officer, liaison officer, emergency operations section chief,
logistics section chief, and information officer.

                                                         2
Postal Service Actions to Locate and Track                                                            HM-AR-06-005
 Employees After Hurricane Katrina


The Postal Service’s supplemental hurricane plans6 and guides are emergency-specific
plans used by facility, district, or area operations. The purpose of these plans is to
provide procedures and protocols for the protection of Postal Service personnel, their
families, and all property and equipment of the Postal Service. The plans also provide
for the safe curtailment of Postal Service operations and the evacuation of on- and
off-duty employees. They also provide policies to safeguard the mail and Postal Service
facilities and vehicles and some include a description of hurricane phases and their
corresponding procedures.

Timeline of Hurricane Katrina’s Landfall in Louisiana and Mississippi

Katrina created a human tragedy that left hundreds of thousands of people without
power, water, or a way to communicate. It materialized into a Category 57 storm that
affected millions of lives and caused significant damage in both Louisiana and
Mississippi. The following is a timeline of events/actions related to Katrina’s landfall in
those states.

             Date                                                  Event/Action

      August 29, 2005              Katrina made its second landfall8 at 6:10 a.m. Central Daylight
         (Monday)                  Time (CDT) as a Category 49 storm near Buras, Louisiana, with
                                   winds near 145 mph.

      August 29, 2005              Katrina made a third landfall near Pearlington, Mississippi, at 10:00
         (Monday)                  a.m. CDT as a Category 310 hurricane, with winds up to 125 mph.
                                   Another set of storms and hurricane winds stretched from near
                                   Biloxi, Mississippi, to the western most barrier islands along the
                                   state line of Alabama and Mississippi.11


Postal Service Areas in the Path of Katrina

Katrina was predicted to significantly impact hundreds of Postal Service facilities and
thousands of employees in the Southeast and Southwest Areas of Postal Service
Operations. The numbers of employees impacted in the Mississippi District and at the
New Orleans P&DC are shown in Table 1:

6
  The Mississippi District followed the Southeast Area Hurricane/Tropical Storm Procedure, dated June 1, 2005; and
the New Orleans P&DC followed the Louisiana District’s Hurricane Guide, 2005.
7
  A Category 5 hurricane sustains winds of 155 miles per hour (mph) or more with flooding up to 10 miles inland and is
accompanied by a storm surge of 18 feet or higher. (Source: The Saffir-Simpson Hurricane Scale, Department of
Commerce Natural Oceanic and Atmospheric Administration (NOAA)).
8
  Katrina made its first landfall in Florida on Thursday, August 25, 2005.
9
  A Category 4 hurricane sustains winds of 131 to 155 mph and is accompanied by a storm surge of 13 to 18 feet.
Terrain lower than 10 feet above sea level may be flooded, requiring massive evacuation of residential areas as far
inland as 6 miles. (Source: The Saffir-Simpson Hurricane Scale, NOAA).
10
   A Category 3 hurricane sustains winds of 111 to 130 mph with flooding inland of 8 miles or more and is
accompanied by a storm surge of 9 to 12 feet. (Source: The Saffir-Simpson Hurricane Scale, NOAA).
11
   Weather Underground article titled Hurricane Katrina – Category 4 Hitting Gulfport/Biloxi Now, August 29 – 10:05
CDT from website (www.wunderground.com/blog/SteveGregory/comment.html).

                                                          3
Postal Service Actions to Locate and Track                                                             HM-AR-06-005
 Employees After Hurricane Katrina

Table 1: Total Numbers of Employees Impacted in the Mississippi District and New Orleans P&DC

                                                Postal Service
              Area Operation                        District/P&DC                          Employees
             Southeast *               Mississippi District (395 ZIP Code)                        735
             Southwest **              New Orleans P&DC (Louisiana District)                    1,328
              Total                                                                             2,063
              * Source: Southeast Area Human Resources Manager
              ** Source: OIG Computer Assisted Assessment Techniques Staff (CAATS)

Table 2 shows that the Postal Service incurred approximately $3,222,579 in administrative
leave12 costs for 1,813 Mississippi District and New Orleans P&DC employees who were
impacted by Katrina. These costs were primarily the result of displaced employees unable
to work at their permanent duty stations. According to Postal Service records, however,
by September 17, 2005, almost all of these employees had reported to work at a Postal
Service facility.
             Table 2: Total Number of Mississippi District and New Orleans P&DC Employees on
                             Administrative Leave as a Result of Hurricane Katrina

                                                                                                    Amount of
                                                          Number of           Cumulative           Administrative
   District/P&DC Administrative Leave                     Employees           Percentage            Leave Used
Mississippi District (395 ZIP Code)                              600                   33              $ 657,005
New Orleans P&DC                                               1,213                   67               2,565,574
 Total                                                         1,813                  100              $3,222,579

                            Objectives, Scope, and Methodology
We conducted our review at the Mississippi District and the New Orleans P&DC. We
discuss our objectives, scope, and methodology in detail in Appendix B.

                                          Prior Audit Coverage

Postal Service Actions to Safeguard Employees From Hurricane Katrina (Report Number
HM-AR-06-002, dated February 15, 2006). The OIG concluded the Postal Service took
appropriate actions as described in the IEMPs and supplemental hurricane plans related
to effective notification to employees prior to Katrina’s landfall. We also found the Postal
Service identified lessons learned from other hurricanes, which helped them to
safeguard employees prior to Katrina’s landfall. As a result, the Postal Service
safeguarded its employees and there were no reported injuries to employees prior to
Katrina’s landfall. We commended the Postal Service for its efforts, which exemplified
that the safety and health of its employees are of the utmost concern to management.


12
   Administrative leave is an absence from duty authorized by appropriate Postal Service officials without charge
to annual or sick leave and without loss of pay. (Source: Employee and Labor Relations Manual (ELM) 17.11,
Section 519, Administrative Leave, July 7, 2005).

                                                           4
Postal Service Actions to Locate and Track                                    HM-AR-06-005
 Employees After Hurricane Katrina


                                             Audit Results

Actions to Locate Employees Were Effective

The Postal Service’s actions to initially locate employees in the Mississippi District and
the New Orleans P&DC were timely and effective because they were able to account
for all 2,063 employees within 23 days after Katrina made landfall. According to the
Mississippi District Human Resources Manager, the Mississippi District located
735 employees in the impacted area (395 ZIP Code) by September 8, 2005 —
10 days after Katrina made landfall. The Southwest Area located all 1,328 employees
who worked at the New Orleans P&DC by September 21, 2005 — 23 days after Katrina
made landfall. Given the devastation Katrina caused to these areas, we believe the
Postal Service’s actions are commendable and exemplify that the safety and health of its
employees are of the utmost importance.

Several facilities in the Mississippi District suffered damage as a result of Katrina. For
example, the Gulfport Processing and Distribution Facility (P&DF) was the largest facility
in the Mississippi District and sustained extensive damage, such as a collapsed ceiling
and flooding (3 to 6 inches of water) throughout the plant. According to the Mississippi
District Emergency Preparedness Manager, the Gulfport P&DF lost power and was shut
down for 8 days. Some of the damages to the facility and grounds are shown in
Figures 1 through 3.

                                 Figure 1. Debris at the Gulfport P&DF




                  Source: Southeast Area Emergency Preparedness Manager




                                                   5
Postal Service Actions to Locate and Track                                                       HM-AR-06-005
 Employees After Hurricane Katrina

                            Figure 2. Collapsed Ceiling at the Gulfport P&DF




                  Source: Southeast Area Emergency Preparedness Manager

                         Figure 3. Watermark on a Fence at the Gulfport P&DF
                              (Showing How High the Flood Waters Were)




                  Source: Southeast Area Emergency Preparedness Manager

The Mississippi District followed the IEMP and the Southeast Area supplemental
hurricane plan, and thus, it promptly located its employees. The district established the
Employee Accountability Unit (EAU)13 to account for employees from the Louisiana and
Mississippi Districts. The EAU was a temporary 24-hour call center, which received
telephone calls14 from employees reporting their locations. Postmasters also used the
EAU to report their employees’ locations and provide information regarding displaced
employees who reported to their facilities. In addition, the EAU updated a “missing
employee list” using daily reports received from the Postal Service Headquarters’ toll-



13
   EAU members included the Mississippi District Personnel Services Manager, Post Office Operations Manager,
Injury Compensation Manager, Labor Relations Manager, Labor Relations Specialist, four human resources
specialists, and the Gulfport P&DF Acting Plant Manager.
14
   The EAU call center temporary telephone numbers were (601) 351-7260, (601) 351-7110, and (601) 351-7379.

                                                       6
Postal Service Actions to Locate and Track                                                           HM-AR-06-005
 Employees After Hurricane Katrina


free national Employee Service Line (1-877-477-3273).15 EAU members also
telephoned employees and canvassed door-to-door to locate employees who did not call
in or report to an installation.

In addition to establishing the EAU, the Mississippi District:

     •   Displayed banners and sign-in-sheets at every Postal Service facility in the
         impacted area advising employees how to contact the district and to call the
         Employee Service Line to report their status.

     •   Tasked postmasters and supervisors with daily accounting for and reporting of all
         employees assigned to their installation.

     •   Tasked postmasters and managers with informing displaced employees they
         needed to call the EAU.

The New Orleans P&DC also suffered significant damage as a result of Katrina. It was
severely flooded and had no running water or electricity. The floodwaters inundated the
basement with over 14 million gallons of water, wiping out the electrical grid for the entire
facility.16 According to the Louisiana District Safety Specialist, the P&DC was shut down
for 8 months – from August 2005 to April 2006 – and all 1,328 employees were displaced
to 38 states across the U.S. Figures 4 through 6 show the water damage in the
basement and the outside of the New Orleans P&DC.

                         Figure 4. Floodwaters Outside the New Orleans P&DC




                    F                                                                       SWater




                   Source: Southeast Area Emergency Preparedness Manager




15
   This is the same toll-free number used for PostalEASE. PostalEASE is an automated Postal Service system that
replaced labor-intensive, paper processing of employee benefits and other transactions.
16
   Source: Postal Service Press Release, Re-opening Ceremony of the Postal Service New Orleans P&DC, April 27,
2006, 10:19 a.m. Eastern Standard Time.

                                                        7
Postal Service Actions to Locate and Track                                   HM-AR-06-005
 Employees After Hurricane Katrina

                        Figure 5. Water Damage Inside the New Orleans P&DC




                  Source: Postal Service OIG

                        Figure 6. Flooded Basement at the New Orleans P&DC




                  Source: Postal Service OIG


While the Southwest Area located all 1,328 P&DC employees within 23 days after
Katrina made landfall, they located the vast majority of these (over 80 percent) by
September 10, 2005, – 12 days after Katrina’s landfall. The following timeline shows the
dates New Orleans P&DC employees were located and the number and percentage of
employees located.




                                                8
Postal Service Actions to Locate and Track                                                        HM-AR-06-005
 Employees After Hurricane Katrina




                                                                    Cumulative Percentage
                   Date               Number Located                      Located

         September 10, 2005                   1,079                                81

         September 13, 2005                   1,097                                83

         September 14, 2005                   1,171                                88

         September 15, 2005                   1,190                                90

         September 16, 2005                   1,216                                92

         September 17, 2005                   1,254                                94

         September 18, 2005                   1,261                                95

         September 19, 2005                   1,278                                96

         September 20, 2005                   1,293                                97

         September 21, 2005                   1,328                               100

The Louisiana District Office, which is responsible for locating New Orleans P&DC
employees in times of emergency and disaster, was colocated at the New Orleans
P&DC. As a result of their inability to respond to the situation, the Southwest Area
assumed their responsibilities which included locating approximately 4,27017 employees
in the district. The Southwest Area established the following procedures in accordance
with the Louisiana District’s supplemental hurricane plan and the New Orleans P&DC’s
IEMP:

     •   Created a list of all employees affected by Katrina using the Time and Attendance
         Collection System (TACS) and DataKeeper.18

     •   Obtained employees’ current mailing addresses and emergency contacts using
         the Human Resources Information System.

     •   Used the media to instruct employees to contact the national emergency
         hotline number (1-888-363-7462) to obtain information on the status of their home
         offices. When employees called the number, they were prompted to enter the first
         three digits of the ZIP Code where they worked. A voice recording provided them
         information about facility openings and closings, changes in reporting times, and

17
   According to the Southwest Area Human Resources Manager, Katrina impacted approximately 4,270 Postal Service
employees in Louisiana.
18
   DataKeeper is an online system that allows access to a collection of databases extracted from the personnel and
payroll files that the Integrated Business Systems Solution Center maintains.

                                                        9
Postal Service Actions to Locate and Track                                                            HM-AR-06-005
 Employees After Hurricane Katrina


         other workplace information specific to their district. The districts were
         responsible for updating the messages specific to their district. Since the hotline
         only facilitated one-way communication, the voice recording was modified on
         September 1, 2005, advising employees to call the Employee Service Line which
         facilitated two-way communications.

    •    Modified the Employee Service Line telephone menu options to obtain information
         from Katrina’s victims. The Postal Service incorporated a script that prompted
         callers (employees) to state what they were “impacted by” and then forwarded
         calls to a special section which collected information on their work location,
         address, Social Security number, and status of their safety and welfare and that of
         their families. In addition, employees were offered the use of the Employee
         Assistance Program.

    •    Updated the list of all employees affected by Katrina using daily reports from
         employees calling the Employee Service Line.

    •    Engaged the help of the Postal Inspection Service to canvass door-to-door. Also,
         engaged the help of OIG special agents who made calls to facilities, supervisors,
         co-workers, and employees’ relatives in an effort to confirm employees’ well-being
         and locations.

    •    Participated in employee accountability list-sharing with the Craigslist,19 two of the
         Postal Service’s major unions,20 the OIG, the Red Cross, and the Federal
         Emergency Management Agency.

The IEMP states that during times of emergency and disaster installations must account
for all personnel. The Louisiana District and the Southeast Area supplemental hurricane
plans require the Postal Service to inform all employees to call the national emergency
hotline number for work-related instructions.

The Mississippi District and Southwest Area followed policies and procedures (such as
establishing an EAU and having employees call the national emergency hotline and the
Employee Service Line) and ensured all employees were initially accounted for in the
days after Katrina. The Postal Service accounted for all employees because it was
concerned about their safety and health.

Mississippi District’s Actions to Track Employees’ Locations Were Effective, But
Southwest Area’s Needed Improvement

The Mississippi District’s actions to track employees’ locations as they moved about the
country were effective because the EAU remained in contact with employees after their
initial contact. The Mississippi District reported that of the 735 employees in the

19
   Craigslist is a website used to share information on communities throughout the U.S. For example, it includes
information on employment, housing, services, missing persons, as well as Katrina survival.
20
   The two unions are the National Association of Letter Carriers and the American Postal Workers Union.

                                                          10
Postal Service Actions to Locate and Track                                                       HM-AR-06-005
 Employees After Hurricane Katrina


impacted area (395 ZIP Code), only 53 were displaced after Katrina made landfall. Of
those, 50 went back to their original workplace and the remaining three are currently
working in Fairhope, Alabama; Dallas, Texas; and Vicksburg, Mississippi. Table 3
shows the number of employees contacted and the number of times contact was made
to track employees’ locations as they moved.

                   Table 3: Total Number of Displaced Mississippi District Employees and
                        Number of Times Employees were Contacted as They Moved

                                      Displaced Employees
                                 Number of            Number of
                             Employees Contacted    Contacts Made
                                     53                   1
                                     32                   2
                                     13                   3
                                      2                   4
                                      1                   5
                            Source: Mississippi District Human Resources Manager

According to the Mississippi District Emergency Manager, (1) employees called the EAU
and the Employee Service Line to report their initial locations and status, (2) EAU
members contacted and remained in contact with employees, and (3) postmasters and
supervisors from other Postal Service facilities called the EAU to report displaced
employees reporting to their facilities or informed displaced employees to contact the
EAU.

The Southwest Area’s actions to track the New Orleans P&DC employees were not fully
effective because after the initial contact with the 1,328 employees, the Southwest Area
was not able to maintain contact with (track) some employees as they changed
addresses in the days and months following Katrina’s landfall. This occurred because
some New Orleans P&DC employees did not inform the Postal Service of their locations
as they moved. In those instances when employees made contact with the Southwest
Area, the area did not maintain complete records of the contact information.

The Southwest Area began to track New Orleans P&DC employees by obtaining a list of
emergency names and telephone numbers from the Postal Service’s Complement
Management System (CMS).21 The area then divided the list and distributed it among its
seven districts,22 which then made contact with employees. In addition, the Southwest
Area relied on the Employee Service Line to obtain information from employees (Katrina
victims) who called to report their locations. However, the number only facilitated one-
way communication — from the Postal Service to the employee. As a result, on
September 1, 2005 (3 days after Katrina made landfall), Postal Service Headquarters
corrected this at the request of the Southwest Area by modifying the Employee Service
Line telephone script, which enabled two-way communications. This allowed call center

21
   CMS houses a historical record of employees’ personnel actions throughout their Postal Service career and it
interfaces with other applications such as eAccess, Payroll, PostalEASE, and TACS.
22
   The Southwest Area Districts are Albuquerque, Arkansas, Dallas, Fort Worth, Houston, Oklahoma, and Rio Grande.

                                                       11
Postal Service Actions to Locate and Track                                                            HM-AR-06-005
 Employees After Hurricane Katrina


personnel in the seven district offices to obtain employees’ locations and to determine if
they were safe on a daily basis.

Although employees were responsible for keeping the Postal Service informed of their
current mailing address, employees did not all follow the policy and report their address
changes. In addition, the Postal Service did not remind employees of this responsibility.
Also, when call center personnel called employees back, some of their telephone
numbers were not operational and some were incorrect. In other cases, employees had
moved.

The IEMP23 requires the Postal Service to account for all employees. The Southeast
Area and Louisiana District supplemental hurricane plans require the Postal Service to
ensure all employees are informed to call the hotline number (such as the national
emergency hotline number) for work-related instructions.

In addition, both the IEMP and supplemental hurricane plans require the Postal Service
to maintain records regarding a hurricane. The IEMP states the district emergency
manager must document emergency activities until they are transferred to the district
documentation unit leader. The Southeast Area hurricane plan requires district safety
managers to keep a hurricane log concerning the various phases of a hurricane
emergency. It states managers will maintain the log from Phase I24 (approximately
36 hours in advance of the hurricane making landfall) through Phase IV (when it is “all
clear” – the hurricane has passed and is no longer a threat). The log is to include the
date of execution of the steps outlined in each phase and the names of personnel
present and their hours worked. Further, Postal Service policy25 requires retention of
safety documents26 for a period of 5 years.

Finally, the ELM27 requires advance approval for annual leave; however, there is an
exception to the policy for emergencies. The policy states that in emergency situations,
the employee must notify appropriate Postal Service authorities and specify the expected
duration of the absence as soon as possible. The ELM28 also states employees must
keep the installation head informed of their current mailing addresses using a PS
Form 1216, Employee’s Current Mailing Address, the “Self Service” screen on the Postal
Service’s blue page, or other Postal Service-approved methods (such as PostalEASE).

The Mississippi District’s actions to track employees’ locations were effective because
they established the EAU and maintained contact with employees as they changed

23
   IEMP, Production Version D-1.2, Mississippi District, March 2004, and Draft Final IEMP, Production Version I-1.2,
New Orleans P&DC, March 2004.
24
   There are four phases as follows: Phase I/Hurricane Watch, Phase II/Hurricane Warning, Phase III/Imminent
Danger of Hurricane Impact, and Phase IV/After the Emergency.
25
   Administrative Support Manual - Issue 13, Section 89, Records Retention, July 1999 (updated with Postal Bulletin
revisions through December 22, 2005).
26
   Examples of safety forms are: Postal Service (PS) Form 1764, Accident Analysis Summary; PS Form 1767,
Report of Hazard, Unsafe Condition, or Practice; PS Form 1769, Accident Report; PS Form 1772, Accident Log; PS
Form 1773, Report of Hazard Log; and PS Form 1783, On-the-Job Safety Review/Analysis.
27
   ELM 17.11, Section 512.41, Requests for Annual Leave, 512.412, Emergencies, July 7, 2005.
28
   ELM 17.11, Section 665.5, Furnishing Address, July 7, 2005.

                                                          12
Postal Service Actions to Locate and Track                                                                  HM-AR-06-005
 Employees After Hurricane Katrina


addresses in the days and months following Katrina. In addition, employees followed
policies and procedures and remained in contact with the EAU if they changed
addresses. As a result, all employees returned to work and the Mississippi District was
aware of the employees’ addresses and contact information following Katrina.

The Southwest Area’s actions to track New Orleans P&DC employees’ locations were
not fully effective after the initial contacts because: (1) telephone lines were inoperable;
(2) initially, the hotline number did not allow for two-way communication; (3) the
Southwest Area did not maintain complete records of employee contact information; and
(4) employees did not follow policy and advise the Postal Service of address and contact
information changes. This resulted in the Southwest Area not knowing the location of
some employees in the days and months following Katrina's landfall.

According to a Southwest Area Labor Relations Specialist, New Orleans P&DC
employees probably did not always inform the Postal Service of their address changes
because the catastrophic effects of Katrina overwhelmed them, their city, and state, and
they were not able to deal with the stress it caused. We agree with this observation
given the fact that New Orleans was evacuated and employees may have been moved
to shelters as far away as Houston, Texas. In addition, shortly after Katrina’s landfall,
Hurricane Rita forced the evacuation of some Texas shelters where Katrina victims were
housed. This caused further chaos and confusion.

Corrective Actions

According to Postal Service officials and memorandums,29 the following corrective
actions were taken as a result of lessons learned30 following Hurricanes Katrina and
Rita:

    •    Management reviewed and updated employees’ contact information in the
         Southwest and Southeast Areas and requested employees to list (1) contacts
         outside their local commuting area and (2) their current email addresses.

    •    Management supplied employees in the Southwest and Southeast Areas31 with
         stickers,32 magnets, and key tags with the national emergency hotline numbers
         and Employee Assistance Program information. See Figure 7 for the approved
         key tag.




29
   Human Resources Southwest Area Memorandum, May 15, 2006, Subject: Emergency Preparedness — Updating
Employee Contact Information; District Manager Louisiana District, October 7, 2005; and the Human Resources
Mississippi District Memorandum, June 13, 2006, Subject: Employee Emergency Contact Information.
30
   The Postal Service held a Hurricanes Katrina and Rita Lessons Learned/After Action Review meeting in Dallas,
Texas, March 14 and 15, 2006. These actions were discussed at the meeting.
31
   According to Postal Service officials, all employees, regardless of their location, will eventually receive the stickers,
magnets, and key tags.
32
   Management placed stickers on employees’ Postal Service identification badges.

                                                             13
Postal Service Actions to Locate and Track                                                                HM-AR-06-005
 Employees After Hurricane Katrina



                                        Figure 7: Approved Key Tag


                   Front View                                                    Back View
                                                                           Postal Service Employee
                                                          Connect to your workplace by calling the Hotline number daily.
             National Workplace Hotline                   Advise as to your location.
                  When disaster strikes,                  Leave current contact phone numbers with the Hotline.
            stay connected to your workplace!             Let us know you are safe!

         1-888-EMERGNC (1-888-363-7462)
                                                                           CALL TOLL FREE
                                                                  1-888-EMERGNC (1-888-363-7462)


Other actions taken by Postal Service Headquarters, the Mississippi District, and the
Southeast and Southwest Area offices include:

    •    Postal Service Headquarters utilized the national emergency hotline as a
         nationwide call center to establish employee accountability and the operational
         status of postal facilities. The hotline/call center allowed call center personnel to
         document employees’ information on spreadsheets as they change addresses
         and will continue to do so for future emergencies. The Postal Service can
         generate a tracking log from the spreadsheets that detail employees’ current
         mailing addresses, phone numbers, emergency contact information, and the date
         and location of the Postal Service facility where the employees return to work.

    •    The Southeast and Southwest Areas and districts are educating employees via
         safety talks and letters on the appropriate measures they should take to prepare
         for, respond to, and recover from a hurricane.

    •    According to the Southeast and Southwest Area Emergency Preparedness
         Managers, during times of disaster, they provide frequent updates on the toll-free
         national emergency hotline advising, reminding, and informing employees about
         required actions for themselves and the Postal Service. The Mississippi District’s
         IEMP policy and procedure contain this provision.

Recommendation

In accordance with Postal Service policy concerning the retention of safety and hurricane
records, we recommend the Vice President, Emergency Preparedness:

        1. Maintain the information and documentation from the national emergency
           hotline/call center tracking log for a period of 5 years.

Management’s Comments

The Vice President, Emergency Preparedness, agreed with the findings and
recommendation. He acknowledged that during Katrina the call center was utilized to
route displaced employees’ calls to a live operator. He said the call center recorded the

                                                     14
Postal Service Actions to Locate and Track                                     HM-AR-06-005
 Employees After Hurricane Katrina


employees’ contact information and then sent it to the Southeast and Southwest Areas’
Human Resource Managers. The Vice President stated that in the future, and in support
of the OIG’s recommendation, calls from displaced employees to the national emergency
hotline number (1-888-363-7462) will be routed to the call center, and the call center
information will be transmitted to the area human resource manager, who will retain the
physical records for a period of 5 years. Management’s comments, in their entirety, are
included in Appendix C.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendation and the planned action
should address the issue identified in the report.

Additional Management’s Comments

Although we had no recommendations for the Southeast or Southwest Area Vice
Presidents, they provided comments. The Southeast Area Vice President said he
agreed with the findings and that the actions planned to revise the Mississippi District’s
IEMP have been implemented as described in the report.

The Southwest Area Acting Vice President stated, in general, the Southwest Area
concurs with the findings, with a few clarifying comments. He said while the report gives
the Southwest Area high grades for its timely efforts in locating and accounting for
displaced Louisiana District P&DC employees, it describes some deficiencies regarding
the tracking of some employees as they moved about the country. The Acting Vice
President said he cannot disagree and concedes there was difficulty in tracking some
employees who moved several times trying to find a temporary home for themselves and
their families. He said the fact that some employees had to move more than once, either
voluntarily or involuntarily, and did not keep their addresses and numbers updated, made
it extremely difficult to track a minimal number of the original 4,270 displaced employees.
Further, the Acting Vice President said in the context of the enormous devastation, the
Southwest Area is confident it did the best it could under the circumstances, but also
agrees there is room for improvement. He said to that end, the Southwest Area has
already put in place measures that the OIG agrees are appropriate to better the area’s
results in future similar events.




                                             15
Postal Service Actions to Locate and Track                                  HM-AR-06-005
 Employees After Hurricane Katrina


We appreciate the cooperation and courtesies provided by your staff. If you have
questions or need additional information, please contact Chris Nicoloff, Director, Human
Capital, or me at (703) 248-2300.

    E-Signed by Mary Demory
 ERIFY authenticity with ApproveI




Mary W. Demory
Deputy Assistant Inspector General
 for Headquarters Operations

Attachments

cc: Thomas G. Day
    William P. Galligan
    Elizabeth A. Johnson
    Samuel E. Pulcrano
    James F. Taylor
    Anthony J. Vegliante
    Deborah M. Giannoni-Jackson
    Steven R. Phelps




                                             16
Postal Service Actions to Locate and Track                                HM-AR-06-005
 Employees After Hurricane Katrina


                             APPENDIX A. ABBREVIATIONS
      CAATS             Computer Assisted Assessment Techniques Staff
      CDT               Central Daylight Time
      CMS               Complement Management System
      COOP              Continuity of Operations Plan
      EAP               Emergency Action Plan
      EAU               Employee Accountability Unit
      ELM               Employee and Labor Relations Manual
      EMT               Emergency Management Team
      IEMP              Integrated Emergency Management Plan
      mph               miles per hour
      NOAA              Natural Oceanic and Atmospheric Administration
      OIG               U.S. Postal Service Office of Inspector General
      P&DC              Processing and Distribution Center
      P&DF              Processing and Distribution Facility
      PS                U.S. Postal Service
      TACS              Time and Attendance Collection System
      U.S.              United States




                                             17
Postal Service Actions to Locate and Track                                                       HM-AR-06-005
 Employees After Hurricane Katrina


            APPENDIX B. OBJECTIVES, SCOPE, AND METHODOLOGY

Our overall objective was to determine the effectiveness of the actions to account for all
employees after Katrina based on whether the Postal Service (1) located employees in
the days after Katrina and (2) tracked employees’ locations as they changed addresses
in the days and months following the hurricane. We also determined what, if any,
responsibility employees had to inform the Postal Service of their locations as they
moved about the country.

We reviewed the facilities in the Southeast Area’s Mississippi District33 and the Louisiana
District’s New Orleans P&DC, located in the Southwest Area.

We interviewed Postal Service representatives in the Southeast and Southwest Areas
and the Mississippi and Louisiana Districts to determine the number of employees and
facilities impacted per district and to get their perspectives on Katrina’s impact on the
Postal Service. We also reviewed the Postal Service’s news links, press releases, email
correspondence, After Action Review meeting minutes, and employee accountability
spreadsheets, and the congressional response on the Postal Service’s role in preparing
for and responding to Katrina.

In addition, we reviewed Postal Service policies and procedures on emergency planning
to determine the actions that should be taken to (1) locate employees after natural
emergencies such as Katrina and (2) track employees’ locations as they move about the
country. Specifically, we reviewed the IEMP which describes the EMT responsibilities in
the response stage for personnel accountability. We interviewed Postal Service
representatives in the Southeast and Southwest Areas and the Mississippi and Louisiana
Districts to determine the actions they took to locate and track employees.

We also reviewed supplemental hurricane plans, which contain guidance on what the
Postal Service should do to ensure they communicate with employees in the event of a
hurricane or tropical storm.

We also reviewed the Postal Service’s policies and procedures to determine employees’
responsibilities to inform the Postal Service of their locations as they moved about the
country. Specifically, we reviewed the COOPs, IEMPs, and supplemental hurricane
plans.34 In addition, we reviewed the Postal Service’s ELM.35

We conducted this audit from February through August 2006 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. We discussed our
observations and conclusions with Postal Service management officials and included
their comments where appropriate.
33
   The impacted facilities in the Mississippi District were in the 395 ZIP Code area.
34
   According to the Southeast Area Emergency Preparedness Manager, they updated the August 1, 2005,
supplemental hurricane plans to incorporate lessons learned from Katrina. The updates took effect May 30, 2006.
35
   ELM 17.11, Section 512.41, Requests for Annual Leave and 512.412, Emergencies, July 7, 2005; and ELM 17.11,
Section 665.5, Furnishing Address, July, 7, 2005.

                                                       18
Postal Service Actions to Locate and Track             HM-AR-06-005
 Employees After Hurricane Katrina


                   APPENDIX C. MANAGEMENT’S COMMENTS




                                             19
Postal Service Actions to Locate and Track        HM-AR-06-005
 Employees After Hurricane Katrina


        APPENDIX C. MANAGEMENT’S COMMENTS (CONTINUED)




                                             20
Postal Service Actions to Locate and Track        HM-AR-06-005
 Employees After Hurricane Katrina


        APPENDIX C. MANAGEMENT’S COMMENTS (CONTINUED)




                                             21
